No. 20-1794

IN RE: NAVY CHAPLAINCY,
CHAPLAINCY OF FULL GOSPEL CHURCHES, ET AL.,
Petitioners,

v.
UNITED STATES NAVY, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS
I, Anthony G. Lantagne, hereby certify that the above referenced Supplemental Brief
of Petitioners, as indicated by the word count feature of MS Word and including
footnotes but excluding those parts enumerated for exclusion under the rules, contains
2,995 words.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 21st day of September, 2021.

ta
Lant
Legal mting, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)

)

to-wit:

Anthony G. Lantagne appeared before me this 21st day of September, 2021, and attested
that the foregoing certificate is true and exact to the best of his knowledge and belief.

Richard Markell

